r_1 ^

i

r

n
i

No.

A—

^ \y

I__'•

\J \Jl

6

L..'

O'

i.;. .s.

tii,:pre: ■■

f-i:

IN THE

SUPREME COURT OF THE UNITED STATES

In re DALE MCKENZIE, PETITIONER,
VS.
DAVID VANDERGRIFF, RESPONDENT.

ON PETITION FOR A WRIT OF HABEAS CORPUS TO
THE U.S. EIGHTH CIRCUIT COURT OF APPEALS

PETITION FOR A WRIT OF HABEAS CORPUS

Dale McKenzie #1149497
Potosi Correctional Center
11593 State Highway 0
Mineral Point, MO 63660
573-438-6000
Petitioner, pro se

\

> .■

OCT 1 5
cr:::T. or .

QUESTIONS PRESENTED
GROUND ONE
1. Has prejudice been shown where the trial court overruled
the defendant's motion for continuance to show that his prior
Georgia conviction was void, and defendant required additional
time to show that his conviction was obtained under an
unconstitutional law?
2. Has prejudice been shown where the trial court has
sentenced the defendant to an extended term of imprisonment
based upon a statute that was later declared unconstitutional?
GROUND TWO
1. Consistent with the holding in Strickland v. Washington,
466 U.S. 668 (1984), which held that to prove prejudice on a
claim of ineffective assistance of counsel, a defendant must
show that "there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding
would have been different."

Has prejudice been shown where

defense counsel failed to move for a rehearing, transfer or
otherwise correct the court's conclusion that appellant had
been convicted of "forcible" sodomy in Georgia because he was
also convicted of rape, which was factually incorrect?

i

LIST OF PARTIES

All parties appear in the caption of the case on the cover
page and are parties to the proceeding in the court whose
judgment is the subject of this petition.

ii

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-17

REASONS FOR GRANTING THE WRIT

18

CONCLUSION

19

INDEX TO APPENDICES

APPENDIX A

DECISION OF U.S. EIGHTH CIRCUIT COURT OF APPEALS

APPENDIX B

DECISION OF U.S. DISTRICT COURT

APPENDIX C

SENTENCE AND JUDGMENT (State of Georgia)

APPENDIX D

SENTENCE AND JUDGMENT (State of Missouri)

APPENDIX E

O.C.G.A. § 16-6-2

APPENDIX F

PLEA AND SENTENCING TRANSCRIPT

iii

TABLE OF AUTHORITIES
Page

Cases
Evitts v. Lucey, 469 U.S. 387 (1985).......................
Joumigan v. Duffy, 552 F.2d 283 (9th Cir. 1977)...
Kennedy v. State, 771 S.W.2d 852 (Mo.App.S.D. 1989)
Mauk v. Lanier, 484 F.3d 1352 (11th Cir. 2007).......
Moss v. State, 10 S.W.3d 508 (Mo. banc 2000)..........
Powell v. State, 510 S.E.2d 18 (Ga. 1998)...............
Ross v. Moffitt, 417 U.S. 600 (1974).......................
State v. Barnes, 517 S.W.2d 167 (Mo. App. 1974)....
State v. Wolfe, 13 S.W.3d 248 (Mo. banc 2000)........
Turner v. Louisiana, 379 U.S. 466 (1965).................
U.S. v. Martin, 164 Fed. Appx. 776 (10th Cir. 2006)
Wainwright v. Torna, 455 U.S. 586 (1982).................
Constitutional Provisions
U.S. Const. Amends. V, VI, XIV
Mo. Const. Art. I, §§ 10, 18(a)
Rules
Mo. Sup. Ct. R. 84.17
Mo. Sup. Ct. R. 30.26
Statutes
O.C.G.A. § 16-6-2
§ 547.070 R.S.Mo.

iv

16
..7, 12
..14, 15
6
16
6, 7, 11
14
14, 15
6
7
6, 12
14

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF HABEAS CORPUS

Petitioner respectfully prays that a writ of habeas corpus
issue to review the judgment below.

OPINIONS BELOW

This case is from Federal Courts:
The opinion of the United States Court of Appeals appears at
Appendix A to the petition and is unpublished.
The opinion of the United States District Court appears at
Appendix B to the petition and is unpublished.

1

JURISDICTION

This case is from federal courts:
1. On August 11, 2010, Petitioner timely-filed a petition for
a writ of habeas corpus, pursuant to 28 U.S.C. § 2254, in the
U.S. District Court, seeking to challenge his 2006 convictions
and sentences.
(E.D. Mo. 2010).

McKenzie v. Steele, No. 4:10-cv-01494-AGF/TCM
On September 30, 2013, the court dismissed

the petition on its merits;
2. A timely-filed notice of appeal was filed in the U.S.
Circuit Court of Appeals for the Eighth Circuit.
Steele, No. 13-3286.

McKenzie v.

The court dismissed the appeal on March

4, 2014.

The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the United States Constitution
provides, in relevant part, that "No State shall ... deprive
any person of life, liberty, or property, without due process
of law."
The Sixth Amendment to the United States Constitution
provides, in relevant part, that no person shall be denied the
right to legal counsel in any criminal proceeding, and the
effective assistance of legal counsel.

3

STATEMENT OF THE CASE

INTRODUCTION
The Georgia Supreme Court held in Powell v. State, 510
S.E.2d 18, 26 (Ga. 1998), that the Georgia sodomy law "insofar
as it criminalizes the performance of private unforced
noncommercial acts of sexual intimacy between persons legally
able to consent" was unconstitutional.

The Eleventh Circuit

Court of Appeals held in Mauk v. Lanier, 484 F.3d 1352, 1355
(11th Cir. 2007), that Powell applied retroactively to cases on
collateral review.
In this case, the defense sought a brief continuance of
sentencing, not trial, to review the record regarding
Petitioner, Dale McKenzie's Georgia conviction that formed the
basis for the trial court's finding that he was a prior and
persistent offender.

The defense required time to investigate

the circumstances to determine whether Petitioner's conviction
was valid; to establish whether Petitioner agreed that his
sexual activity was consensual or nonconsensual.

If the record

at Petitioner's plea hearing did not establish Petitioner's
sexual activity was nonconsensual, there was no evidence
bringing Petitioner outside the reach of Powell.

Here, the

record does not establish Petitioner's sexual activity was
nonconsensual, and thus, the trial court used a conviction that
was void in order to impose an extended sentence, and
therefore, the conviction a nullity ab initio.
4

GROUND ONE
THE TRIAL COURT ERRED IN OVERRULING PETITIONER'S MOTION
FOR CONTINUANCE TO SHOW THAT HIS PRIOR GEORGIA CONVICTION WAS
VOID, BECAUSE THIS RULING DEPRIVED HIM OF DUE PROCESS, AND OF
FUNDAMENTAL FAIRNESS, IN VIOLATION OF THE FOURTEENTH AMENDMENT
TO THE UNITED STATES CONSTITUTION AND ARTICLE I, § 10 OF THE
MISSOURI CONSTITUTION, IN THAT, THE TRIAL COURT SENTENCED
PETITIONER TO AN EXTENDED TERM OF IMPRISONMENT BASED UPON A
STATUTE THAT WAS LATER DECLARED UNCONSTITUTIONAL, WHICH WOULD
RENDER THE CONVICTION VOID, AND PETITIONER REQUIRED ADDITIONAL
TIME TO SHOW THAT HIS CONVICTION WAS OBTAINED UNDER AN
UNCONSTITUTIONAL LAW.

ARGUMENT
In this case, the U.S. Eighth Circuit Court of Appeals
overlooked material matters of fact and law when it issued its
Judgment dismissing appeal on March 04, 2014.

Moreover, the

court's dismissal is based on an unreasonable determination of
the facts in light of the evidence presented in the state-court
proceedings.

In particular, Petitioner, Dale McKenzie

requested a continuance of his sentencing hearing so that he
could seek to review the record regarding his Georgia
conviction (No. 98-CR-0091; State of Georgia v. Dale McKenzie)
that formed the basis for the trial court's finding that he was
5

a prior and persistent offender (Tr.960).

The Georgia Supreme

Court held in Powell v. State, 510 S.E.2d 18, 26 (Ga. 1998),
that the Georgia sodomy law "insofar as it criminalizes the
performance of private unforced noncommercial acts of sexual
intimacy between persons legally able to consent" was
unconstitutional.

The Eleventh Circuit Court of Appeals held

in Mauk v. Lanier, 484 F.3d 1352, 1355 (11th Cir. 2007), that
Powell applied retroactively to cases on collateral review.
In this case, the defense required time to investigate the
circumstances to determine whether McKenzie's conviction was
valid, and to seek to overturn it (Tr.960).

The State objected

on the ground that McKenzie was originally charged with rape,
and the court's ruling only protected private, consensual
sexual activity (Tr.961).

The trial court agreed and denied

the continuance (Tr.964).

It sentenced McKenzie to extended

terms beyond the statutory maximum (Tr.975).
The grant or denial of a continuance rests in the sound
discretion of the trial court, and the court's ruling will be
reversed only upon a strong showing of abuse of that
discretion.
2000) .

State v. Wolfe

13 S.W.3d 248, 261 (Mo. banc

Here, the trial court was only requested to grant a

brief continuance of sentencing, not trial.

Thus, the court

abused its discretion in refusing to do so.
If a statute under which a defendant is convicted is later
declared unconstitutional, the conviction is "presumptively
void."

U.S. v. Martin, 164 Fed. Appx. 776, 777-78 (10th Cir.
6

2006).

The statute is void and the conviction a nullity

ab initio, for the constitutionality of the statute affects the
foundation of the whole proceedings.

Journigan v. Duffy, 552

The law is void and is as no

F.2d 283, 289 (9th Cir. 1977).
law. Id.

In this case, the State's argument is not compelling.

It

is not what McKenzie was initially charged with, but what he
actually pled guilty to, that is controlling.

Moreover, the

Sentence and Judgment from Georgia (Case No. 98-CR-0091)
confirms that McKenzie entered a plea of guilty to "SODOMY"
and was sentenced to ten years probation.

Furthermore, the

"RAPE" charge was ordered Nolle Prosequi.

Specifically,

McKenzie was charged with:

RAPE, COUNT I; AGGRAVATED SODOMY,

COUNT II; AND POSS./FIREARM BY CONVICTED FELON, COUNT III.
COUNTS I AND III WERE ORDERED NOLLE PROSEQUI, AND COUNT II
AGGRAVATED SODOMY WAS REDUCED TO A LESSER OFFENSE OF SODOMY.
The defense needed time to establish whether McKenzie
agreed that his sexual activity was consensual or nonconsensual.

If the record at his plea hearing did not

establish McKenzie's sexual activity was nonconsensual, there
was no evidence bringing McKenzie outside the reach of Powell,
supra.

Here, the record does not establish McKenzie's sexual

activity was nonconsensual.
The Constitution's Due Process [Clause] guarantees every
defendant the right to a fair trial.
7

Turner v. Louisiana, 379

U.S. 466, 471-472, 85 S.Ct. 546, 13 L.Ed.2d 424 (1965).

Here,

the trial court has used a conviction that was void in order to
impose an extended sentence, and McKenzie's right to a
fundamentally fair trial and sentence required the granting of
a continuance to prevent this sentencing error.
The Eighth Circuit's denial of appeal is based on an
unreasonable determination of the facts in light of the
evidence presented in the state-court proceedings,

The court's

denial of appeal thus violated McKenzie's rights to due
process, and to fundamental fairness, in violation of the
Fourteenth Amendment to the United States Constitution and
Article I, § 10 of the Missouri Constitution,

This Court must

grant habeas relief, and reverse McKenzie's conviction and
sentence, and remand the case for a new sentencing hearing
without the improper prior conviction from Georgia or, at the
very least, remand for an evidentiary hearing.

8

GROUND TWO
THE MOTION COURT CLEARLY ERRED WHEN IT DENIED PETITIONER'S
POST-CONVICTION MOTION WITHOUT A HEARING BECAUSE PETITIONER
ALLEGED FACTS, NOT REFUTED BY THE RECORD, SHOWING HE WAS DENIED
HIS RIGHTS TO DUE PROCESS, TO EFFECTIVE ASSISTANCE OF COUNSEL,
AND TO FUNDAMENTAL FAIRNESS, AS GUARANTEED BY THE FIFTH, SIXTH
AND FOURTEENTH AMENDMENTS TO THE UNITED STATES CONSTITUTION AND
ARTICLE I, §§ 10 AND 18(a) OF THE MISSOURI CONSTITUTION, IN
THAT, APPELLATE COUNSEL FAILED TO MEET THE STANDARD OF A
REASONABLY COMPETENT ATTORNEY UNDER SIMILAR CIRCUMSTANCES BY
FAILING TO MOVE FOR A REHEARING, TRANSFER OR OTHERWISE CORRECT
THE (MISSOURI COURT OF APPEALS) COURT'S CONCLUSION THAT
PETITIONER HAD BEEN CONVICTED OF "FORCIBLE" SODOMY IN GEORGIA
BECAUSE HE WAS ALSO CONVICTED OF RAPE.

PETITIONER PLED AND

TENDERED DOCUMENTARY PROOF SHOWING THE RAPE CHARGE WAS
DISMISSED, WHICH RAISED A GENUINE ISSUE OF FACTS AS TO THE
LEGITIMACY OF THE SODOMY CONVICTION.

THE MOTION COURT'S RULING

THAT APPELLATE COUNSEL HAD NO OBLIGATION TO FILE SUCH MOTIONS
LEAVES A DEFINITE AND FIRM IMPRESSION A MISTAKE HAS BEEN MADE.

ARGUMENT
In this case, the U.S. Eighth Circuit Court of Appeals
overlooked material matters of fact and law when it issued its
Judgment dismissing appeal on March 04, 2014.
9

Moreover, the

Court's dismissal is based on an unreasonable determination of
the facts in light of the evidence presented in the state-court
proceedings.

In particular, Petitioner, Dale McKenzie

complained that appellate counsel (for his direct appeal) was
deficient for failing to correct the Missouri Court of Appeals
when it errantly concluded that McKenzie was convicted of rape.
That McKenzie was "convicted" of rape was significant to the
court on direct appeal, because it concluded that McKenzie's
rape conviction demonstrated that his sodomy conviction in
Georgia was of the type not invalidated by the Georgia Supreme
Court.

However, McKenzie was not convicted of rape,

The

motion court denied a hearing on this claim, concluding simply
that appellate counsel was under no obligation to file a motion
for rehearing.

The Missouri Court.of Appeals (Division One)

agreed with the motion court, which poses the following
questions:
1) Was appellate counsel required to file a motion for
rehearing?

Yes, if the situation warranted it.

2) Was the trial court's confidence in the outcome of
the proceedings undermined?

Yes.

In this case, McKenzie was convicted of "sodomy" following
his guilty plea (No. 98-CR-0091; State of Georgia v. Dale
McKenzie) in 1998 (PCR-LF 67, 148).

The statute under which

McKenzie was convicted of sodomy in Georgia had been declared

10

unconstitutional, under certain circumstances.
State, 510 S.E.2d 18 (Ga. 1998).

Powell v.

Georgia statute defines

"sodomy" as:
(a)(1) A person commits the offense of sodomy when
he or she performs or submits to any sexual
act involving the sex organs of one person
and the mouth or anus of another.
O.C.G.A § 16-6-2.
Powell concluded that to criminalize non-forced,
consensual activity between adults was unconstitutional. Id.
The same Georgia statute also criminalizes "aggravated sodomy"
which is sodomy accomplished through the use of force or
against one below the age of ten years.

O.C.G.A. § 16-6-2(2).

In this case, assuming McKenzie was over eighteen at the
time he committed the Georgia offense, and he was, the only way
the Georgia prior conviction could1have been valid as proper
enhancement, would have been if the complaining witness was
below the age of (sixteen) consent, and she was not; she was
seventeen years of age in November, 1997.

If McKenzie's

supposed crime had been with an adult, then a "sodomy"
conviction would not lie, and a conviction based on an
unconstitutional statute would not be valid.

If a statute

under which a defendant is convicted is later declared
unconstitutional, the conviction is "presumptively void."

11

U.S. v. Martin, 164 Fed. Appx. 776, 777-78 (10th Cir. 2006).
The statute is void and the conviction a nullity ab initio, for
the constitutionality of the statute affects the foundation of
the whole proceedings.
289 (9th Cir. 1977).

See Journigan v. Duffy, 552 F.2d 283,
The law is void and is as no law. Id.

In this case, at sentencing, the defense requested a
continuance of 14 or 15 days to explore the validity of one of
McKenzie's two priors, because the statute under which
McKenzie was convicted in Georgia had been declared
unconstitutional (Tr.961).
(Tr.963).

The trial .court denied the request

It sentenced McKenzie as a prior and persistent

offender; to 30 years imprisonment for burglary 1st deg.; life
imprisonment for assault 1st deg.; and one year for assault
3rd deg.; and ordered all sentences to be served consecutively
(Tr.975).
On direct appeal, McKenzie raised that he was wrongly
found to be a persistent offender because of the Georgia
conviction, which was premised on a sodomy statute later found
to be unconstitutional for criminalizing consensual sexual
activity.

Appellate counsel briefed the trial court erred by

not granting the continuance.

The Missouri Court of Appeals

reasoned that trial counsel waited too long to raise the issue
and that McKenzie had not demonstrated that further
investigation would show his conviction was void under Georgia
law.

State of Missouri v. Dale McKenzie, ED89179, Order and

12

Memorandum of direct appeal at p. 17.

The statute was

unconstitutional insomuch as it criminalized "unforced,
consensual, noncommercial acts of adult sexual activity between
persons legally able to consent" Id.

The court assumed

McKenzie's conviction for sodomy was for a forcible,
nonconsensual form of the offense because "Defendant was still
charged with and convicted of rape, which is defined as having
carnal knowledge with a female forcibly and against her will."
Id.

(citations omitted).
McKenzie pled the Missouri Court of Appeals (on direct

appeal) had made a material mistake of fact; nothing in the
record showed that McKenzie was convicted of rape, rather the
Judgment and Sentence showed the rape count was dismissed
(PCR-LF 108-109).

McKenzie pled that appellate counsel agreed

the Missouri Court of Appeals got it wrong, but only after the
time for filing a motion for rehearing had passed (PCR-LF 109).
McKenzie submitted a copy of the Judgment and Sentence
from Georgia with his pro se and amended motions for post­
conviction relief (PCR-LF 67, 148).

The motion court held that

appellate counsel was not required to file a motion for
rehearing (on direct appeal), but clearly a motion for
rehearing was the proper vehicle for correcting a material
mistake of fact.

Rule 84.17 (made applicable to criminal

appeals by Rule 30.26).

Rule 84.17 comprehends filing a motion

for rehearing in just such a situation "to call attention to
13

material matters of law or fact overlooked or misinterpreted by
the court."

Rule 84.17.

Had counsel done so here, the outcome

of the appeal would have been different and the matter remanded
for a hearing on the validity of McKenzie's prior Georgia
conviction.
The Missouri Court of Appeals (Division One) agreed with
the motion court's reasoning that because McKenzie had no
constitutional right to counsel to seek discretionary review,
counsel could not be ineffective for foregoing a motion for
rehearing.

Dale McKenzie v. State of Missouri, Memorandum at

p. 13 citing Kennedy v. State, 771 S.W.2d 852, 859 (Mo.App.S.D.
1989); State v. Barnes, 517 S.W.2d 167-170 (Mo. App. 1974); and
Wainwright v. Torna, 455 U.S. 586, 586-88 (1982).

However,

Division Four's reliance on these cases is misplaced.
Both Kennedy and Wainwright are inapplicable to McKenzie's
case because both cases had to do with the right to counsel on
transfer applications or petitions for certiorari,

Transfer on

certiorari is a means to take one's case to a different court.
Such review (beyond what one obtains in an intermediate
appellate court) is for broad questions of statutory or
constitutional interpretation.

As the United States Supreme

Court noted in Ross v. Moffitt

417 U.S. 600, 616-17 (1974), a

Supreme Court's review depends on many factors other than the
perceived correctness of the decision under review,

So, the

appellants in Kennedy and Wainwright were seeking something
14

more than that afforded them in their first appeal; review by a
different tribunal.

Here, in contrast, McKenzie merely sought

review of an error made by the court having jurisdiction over
his appeal from conviction.

McKenzie sought reasonably

competent representation by his appointed counsel on appeal to
the Missouri Court of Appeals, to correct an error made by the
court (on direct appeal) in affirming the judgment of
conviction.
The Kennedy case is also distinguishable because McKenzie
had not demonstrated a reason that his case should be
transferred. Id. at 859.

The claim Mr. Kennedy contemplated,

an instructional error, the Missouri Court of Appeals deemed
Here, McKenzie on the other hand, had a bona fide

"meritless."

complaint about the factual basis the court used to decide his
direct appeal.
The Barnes case does deal with the right to counsel on a
motion for rehearing, but it too is distinguishable,

Barnes 1

appellate counsel had been permitted to withdraw and Barnes
sought replacement counsel in order to file a motion for
rehearing.

Barnes, supra at 167-68.

The court in Barnes was

not called to determine whether existing counsel lapsed by
failing to file, but whether counsel ought to have been
appointed solely for that purpose.
Moreover, the court denied Barnes' request, using a
pragmatic but somewhat suspect legal rationale.
15

The court

concluded that while a motion for rehearing allowed for the
court to modify, rehear, affirm or reverse its original
decision, in actual practice the court rarely did so. Ici. at
169.

Thus, the court decided "[i]t is therefore, clear at

least to us, that on a criminal appeal a.motion for rehearing
is merely an exhaustion device used to seek discretionary
review in the highest court of this State." Id♦

So, while the

Missouri Court of Appeals may have been dismissive of the ends
of a motion for rehearing, the Missouri Supreme Court Rules
state the purpose of such motion is to call attention to
material matters of law or fact overlooked or misinterpreted by
the Court of Appeals.

Rule 84.17.

Defendants in Missouri have an appeal of right after final
judgment on an indictment or information.
(2000).

Section 547.070 RSMo

The Due process Clause guarantees effective assistance

of counsel on a first appeal as of right; a right similar to
the Strickland requirement of effective assistance of counsel
for trial attorneys,

Evitts v. Lucey, 469 U.S. 387 (1985).

allege and prove ineffective assistance of appellate counsel,
appellant must show that his counsel made an error in
representation, and the error overlooked was "so obvious from
the record that a competent and effective lawyer would have
recognized and asserted it."

Moss v. State, 10 S.W.3d 508,

514-15 (Mo. banc 2000).

16

To

The Eighth Circuit's denial of appeal is based on an
unreasonable determination of the facts in light of the
evidence presented in the state-court proceedings.

The court's

denial of appeal thus violated McKenzie's rights to due
process, to effective assistance of counsel, and to fundamental
fairness, in violation of the Fifth, Sixth and Fourteenth
Amendments to the United States Constitution and Article I, §§
10 and 18(a) of the Missouri Constitution.

Therefore, this

Court must grant habeas relief, and reverse McKenzie's
conviction and sentence, and remand this case for a new
sentencing hearing without the improper conviction from Georgia
or, at the very least, remand for an evidentiary hearing.

17

REASONS FOR GRANTING THE PETITION
The writ should issue because the record does not
establish Petitioner's sexual activity was nonconsensual, and
thus, the trial court used a conviction that was void in order
to impose an extended sentence, and therefore, the conviction
a nullity ab initio.
Specifically, the Georgia Supreme Court held in Powell v.
State, supra, that the Georgia sodomy law "insofar as it
criminalizes the performance of private unforced noncommercial
acts of sexual intimacy between persons legally able to
consent" was unconstitutional.

The Eleventh Circuit Court of

Appeals held in Mauk, supra, that Powell applied retroactively
to cases on collateral review.
Moreover, if the record at McKenzie's plea hearing did not
establish his sexual activity was nonconsensual, there was no
evidence bringing McKenzie outside the reach of Powell, supra.
Here, the record does not establish McKenzie's sexual activity
was nonconsensual.

Thus, if a statute under which a defendant

is convicted is later declared unconstitutional, the conviction
is "presumptively void."
In compliance with Rules 20.1 and 20.4 Petitioner states
as follows:
1. The writ will be in aid of the Court's appellate
jurisdiction, by establishing its precedence that will furnish
18

a basis for determining an identical or similar case that may
subsequently arise, or present a similar question of law.
2. Exceptional circumstances warrant the exercise of the
Court's discretionary powers, in that, a constitutional
violation has resulted.

Thus, a manifest injustice or

miscarriage of justice would result in the absence of habeas
relief.
3. Adequate relief cannot be obtained in any other form or
from any court, as Petitioner has presented this issue before
the United States District Court; and the United States Eighth
Circuit Court of Appeals.

19

CONCLUSION

The Eighth Circuit Court of Appeals' denial of appeal
thus violated Petitioner's rights to due process of law, and
to fundamental fairness, and to equal protection of the law.
The proper remedy is to grant habeas relief, and reverse
Petitioner's conviction and sentence, and remand this case for
a new sentencing hearing without the improper conviction from
Georgia, and for any other relief this Court deems proper.

Respectfully submitted,

DALE MCKENZIE #1149497
POTOSI CORRECTIONAL CENTER
11593 STATE HIGHWAY 0
MINERAL POINT, MO 63660
573-438-6000
PETITIONER, PRO SE
DATE:

20

t

